 

IN THE SUPREME COURT OF THE UNITED STATES

 

JUSTIN LOPER,
Petitioner
v.

UNITED STATES OF AMERICA,
Respondent.

 

CERTIFICATE OF SERVICE

I, Jamie J. Resch, do swear or declare that on this 19» day of January,
2021, as required by Supreme Court Rule 29, I have served the enclosed
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS and PETITION
FOR A WRIT OF CERTIORARI on each party to the above proceeding or that
party’s counsel, and on every other person required to be served, by delivering
to the United States Post Office, First Class Mail prepaid, a package properly
addressed to each of them and containing the above documents.

The names and addresses of those served are as follows:

Solicitor General of the United States
U.S. Department of Justice

950 Pennsylvania Avenue, NW
Washington, DC 20530-0001

(202) 514-2217

Angela H. Dows, Esq. (Attorney for co-defendant Kevin Hall)
1333 North Buffalo Drive, Suite 210

Las Vegas, Nevada 89128

(702) 794-4411

I declare under penalty of perjury that the foregoing is true and correct.

Executed on January 19, 2021.

 
